Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE ALLOWANCES FOR
    INCONTINENCE SUPPLIES
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE ALLOWANCES FOR
    INCONTINENCE SUPPLIES
                    OFFICE     OF INSPECTOR          GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statuto~ mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.




                      Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI’S Philadelphia Regional Office prepared this report under the direction of Robert
A. Vito, Regional Inspector General. Principal OEI staff included:

REGION                                           HEADQUARTERS

Nancy J. Molyneaux, Project Leader	              Lisa A. Foley, Program Specialist
                                                 Brian Ritchie, TSS


To obtain a copy of this report, call the Philadelphia Regional Office at 1-800-531-
9562.
Department of Health and Human Services�
        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE ALLOWANCES FOR
    INCONTINENCE SUPPLIES




                   JUNE GIBBS BROWN
                   Inspector General

                        APRIL 1997
                      0EI-03-94-O0773
              EXECUTIVE                          SUMMARY

PURPOSE

This report identifies trends in questionable billing practices for incontinence supplies
under Medicare Part B in 1995.

BACKGROUND

Incontinence is the inability of the body to control urinary and bowel functions. Under
the Medicare Part B program, the Health Care Financing Administration (HCFA) will
reimburse suppliers that provide incontinence supplies to aid individuals whose
incontinence condition “...is of long and indefinite duration.” Such reimbursement is
provided only as part of Medicare’s coverage for prosthetic devices such as catheters
and external urinary collection devices. The HCFA will also reimburse for accessories
such as irrigation syringes and sterile saline solutions that aid in the effective and
therapeutic use of these devices.

We determined trends in Medicare allowances for incontinence supplies in calendar
years 1994 and 1995 from a 1 percent sample of beneficiaries from HCFAS National
Claims History file. We focused on questionable practices concerning two facets of
billing: 1) accessories that can only be billed with prosthetic devices and 2) frequency
parameters for female external urinary collection devices. In December 1994, the
Office of Inspector General (OIG) issued a report which identified over $100 million
in questionable allowances for incontinence supplies.

Since our initial study began, there have been aggressive efforts by HCFA, Durable
Medical Equipment Regional Carriers (DMERCS), and the OIG to prevent
questionable allowances for incontinence supplies. For example, both DMERCS and
the OIG have issued fraud alerts concerning inappropriate billings for incontinence
supplies. In October 1994, the DMERCS issued a draft policy clarifying coverage and
frequency parameters for incontinence supplies. The final version was issued in
October 1995.

FINDINGS

Abusive billingsfor incontinencesupplieshave all but disappeared.

Questionable billings for supplies have declined by over 75 percent since 1994.
Medicare allowances for supplies related to questionable billings decreased from $111
million in 1994 to only $26 million in 1995.

Allowances for supplies billed without prosthetic devices totaled $80 million in 1994.
In 1995, this type of questionable billing for supplies dropped to less than $22 million,


                                             i
a decrease of 73 percent. In the last quarter of 1995, following the DMERCS’
implementation of their new guidelines, such billings dropped to $1.7 million.

In 1994, billings for excessive female external urinary collection devices (EUCDS)
reached a high of $31 million. In 1995, this figure dropped to $3.8 million, a decrease
of 88 percent. In the last quarter of 1995, no such billings occurred.

Total Medicare allowances for incontinence supplies have declined for the first time
since 1991. Allowances decreased by over 40 percent from $260 million in 1994 to
$150 million in 1995.

Approximately$49 millionhus been recoveredthroughseizuresand restitutions
                                                                        from
abusiveincontinencesuppliers.

As part of an initiative to investigate fraud in incontinence billing, the Office of
Investigations, along with other law enforcement agencies, has developed eight cases
against incontinence suppliers and has recovered approximately $49 million.

CONCLUSION

Concerted efforts by HCF~ OIG, and other law enforcement agencies, in the form of
changes in payment and coverage policy, fraud alerts, reports, and prosecutions, have
contributed to the declines in Medicare allowances documented in this report. The
new policy has made billing for questionable supplies more difficult. The fraud alerts
and reports concerning incontinence supplies have made DMERCS and others
concerned with claims processing aware of questionable billing practices. Along with
published documents, prosecutions of and payment of restitutions by incontinence
suppliers has sent a message that fraudulent billing for incontinence supplies will not
be tolerated.

Based on our analysis, we estimate that declines in questionable billings saved the
Medicare program $85 million in 1995. Assuming questionable billing levels will
remain at the 1995 fourth quarter level ($1.7 million), total questionable allowances in
1996 will be approximately $6.8 million, resulting in savings of $104 million over 1994
levels. If this trend continues, we estimate that Medicare will save $542 million
between 1996 and 2000.

We will refer information on suppliers who continue to submit questionable claims for
supplies without prosthetic devices to the appropriate agencies. Continued vigilance in
this area will make questionable allowances for incontinence supplies even lower in
the future.




                                            ii
a decrease of 73 percent. In the last quarter of 1995, following the DMERCS’
implementation of their new guidelines, such billings dropped to $1.7 million.

In 1994, billings for excessive female external urinary collection devices (EUCDS)
reached a high of $31 million. In 1995, this figure dropped to $3.8 million, a decrease
of 88 percent. In the last quarter of 1995, no such billings occurred.

Total Medicare allowances for incontinence supplies have declined for the first time
since 1991. Allowances decreased by over 40 percent from $260 million in 1994 to
$150 million in 1995.

Approximately$49 millionhas been recoveredthroughseizuresand restituths from
abw”ve incontinencesuppliem

As part of an initiative to investigate fraud in incontinence billing, the Office of
Investigations, along with other law enforcement agencies, has developed eight cases
against incontinence suppliers and has recovered approximately $49 million.

CONCLUSION

Concerted efforts by HCF~ OIG, and other law enforcement agencies, in the form of

changes in payment and coverage policy, fraud alerts, reports, and prosecutions, have

contributed to the declines in Medicare allowances documented in this report. The

new policy has made billing for questionable supplies more difficult. The fraud alerts

and reports concerning incontinence supplies have made DMERCS and others

concerned with claims processing aware of questionable billing practices. Along with

published documents, prosecutions of and payment of restitutions by incontinence

suppliers has sent a message that fraudulent billing for incontinence supplies will not

be tolerated.


Based on our analysis, we estimate that declines in questionable billings saved the

Medicare program $85 million in 1995. Assuming questionable billing levels will

remain at the 1995 fourth quarter level ($1.7 million), total questionable allowances in

1996 will be approximately $6.8 million, resulting in savings of $104 million over 1994

levels. If this trend continues, we estimate that Medicare will save $542 million

between 1996 and 2000.


We will refer information on suppliers who continue to submit questionable claims for

supplies without prosthetic devices to the appropriate investigative agencies.

Continued vigilance in this area will make questionable allowances for incontinence

supplies even lower in the future.





                                            11

                   TABLE                     OF CONTENTS
                                                                                                                PAGE


EXECUTIVE     SUMMARY


INTRODUCI’ION         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1


FINDINGS    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


 � Declines unquestionable          Billings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


 � OIGProsecutions        and Recoveries            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


CONCLUSION        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


APPENDIX    A




kAllowed    Amounts and Confidence Intervals                      . . . . . . . . . . . . . . . . . . . . . . . . .A-l
                          INTRODUCTION

PURPOSE

This report identifies trends in questionable billing practices for incontinence supplies
under Medicare Part B in 1995.

BACKGROUND

MixlicareCoverageof Iiacontinence
                                Supplies

Incontinence is the inability of the body to control urinary and bowel functions.
Reimbursement for incontinence supplies is included as part of Medicare’s coverage
for prosthetic devices. According to Medicare Carriers Manual section 2130,
“prosthetic devices (other than dental) which replace all or part of an internal body
organ (including contiguous tissue), or replace all or part of the function of a
permanently inoperative or malfunctioning internal body organ are covered when
furnished on a physician’s order.”

Under the Medicare Part B program, the Health Care Financing Administration
(HCFA) will reimburse suppliers that provide incontinence supplies to aid individuals
whose incontinence condition “...is of long and indefinite duration.” Certain items,
such as absorbent undergarments or diapers, are specifically excluded from coverage.

Incontinence supplies include prosthetic devices such as catheters and external urinary
collection devices such as pouches or cups. Catheters are flexible, tubular instruments
used to control urinary flow. The HCFA will also reimburse accessories that aid in
the effective and therapeutic use of these devices. These accessories include items
such as drainage bags, irrigation syringes, and lubricants. However, accessories are not
covered in the absence of a prosthetic device.

Between 1991 and 1994, Medicare allowances for incontinence supplies rose sharply
from $108 million to $260 million. In 1993, nearly one-half ($ 107 million) of the total
allowances for incontinence supplies was related to questionable billings. These
billings represented claims for supplies billed without prosthetic devices and excessive
utilization of certain prosthetic devices.

Cam-erhocessing of IncontinenceSupplyClizirns

Beginning in October 1993, four Durable Medical Equipment Regional Carriers
(DMERCS) have been responsible for processing claims for durable medical
equipment, prosthetics, orthotics, and supplies. To ensure consistency in medical
review policies, all DMERCS issue identical coverage and reimbursement policies that
implement Medicare guidelines. The DMERCS issued a single national policy for
urological supplies in October 1995. This policy redefines and clarifies some of the
definitions used in claims for incontinence and urological supplies. The policy stresses
the non-coverage of diapers and similar absorptive pads. The policy also reinforces
the condition of “permanence” for coverage purposes and stresses that accessories not
used in conjunction with covered catheters or external urinary collection devices are
not covered. The policy also highlights frequency parameters for certain items.
Supplies such as skin barriers are not considered necessary for the effective use of a
prosthetic device and are not covered. The data presented in this report reflect trends
in 1995 incontinence allowances in the three quarters before and in one quarter after
this policy was implemented.

FraudAlen3

A Medicare Fraud Alert issued by the Office of Inspector General (OIG) in

December 1994 described a scheme to market a new disposable drainage bag which

needs to be changed daily and bill under the code for a standard drainage bag which is

changed 2 to 4 times per month or under the code for a drainage bottle which is

changed once every 6 months. The alert pointed out that daily reimbursement under

the drainage bottle code would result in allowances of nearly $4,000 over 6 months.


One DMERC issued a Medicare Fraud Alert in August 1995 describing how suppliers

were billing for female external urinary collection devices but providing beneficiaries

with adult diapers which are not covered under Medicare. The alert also points out

that none of the beneficiaries had permanent incontinence, a requirement for

Medicare coverage of incontinence care.


l%or Ojjice of Impector GeneralWork

The 1994 report Questionable Medicare Payments for Incontinence Supplies (OEI-03-94-
00772) identified over $100 million in questionable allowances in 1993 and is one of a
series of reports concerning Medicare payments for incontinence supplies. Marketing
of Incontinence Supplies (OEI-03-94-O0770) described supplier and nursing home
practices that can lead to questionable allowances and examined issues concerning
Medicare beneficiaries’ use of incontinence supplies. Medicaid Payments for
Incontinence Supplies (OEI-03-94-00771)   examined how the Medicaid program
processes claims for incontinence supplies in 14 States.

In addition, the OIG had undertaken a nationwide investigation of companies abusing
Medicare’s incontinence benefit. Since these studies and investigations were initiated,
there have been efforts by DMERCS and the OIG to prevent questionable allowances
for incontinence supplies. For example, both DMERCS and the OIG have issued
fraud alerts concerning inappropriate billing for incontinence supplies. In October
1995, the DMERCS implemented a new policy clarifying coverage and frequency
limitations for incontinence supplies. Considering the level of activity concerning
incontinence supplies occurring in 1995 and given that this was the most recent year



                                            2

for which complete data was available, the OIG determined that this was the most
appropriate time frame for a follow-up to its 1994 report.


METHODOLOGY

To determine trends in allowances for incontinence supplies, we selected a 1 percent
sample of claims for 51 incontinence codes from HCFA’S National Claims History file
for calendar year 1995. We compared this data with the 1993 data obtained for our
1994 report Questionable Payments for Incontinence Supplies and with 1994 data. Our
data includes the eight incontinence codes added after our 1994 report was issued.

Earlier OIG work identified two types of questionable billing: 1) supplies being billed
without prosthetic devices, and 2) female external urinary collection devices billed in
excess of one per day. To determine the nature and extent of questionable billing
practices, we applied October 1995 DMERC guidelines to the services billed in 1995.

To identify trends in supplies billed without prosthetic devices in 1995, we categorized
68 codes as either supplies or prosthetic devices. Because 11 of the 26 incontinence
supply codes could also be used in ostomy care, we added 17 ostomy prosthetic device
codes to our original 51 codes. This prevented ostomy supplies billed with ostomy
prosthetic devices from erroneously appearing in our totals for supplies billed without
devices. We identified supplies billed without devices in a 1 percent sample of
HCFA’S National Claims History File. We compared our 1995 data with data
obtained through a similar process for 1994 and 1993 claims.

We did not include services billed under code A4323, “sterile saline solution,” when
they were not billed in conjunction with incontinence supplies. According to DMERC
officials, code A4323 may be used in conjunction with non-incontinence supplies such
as enteral nutrition products.

To determine trends in the over-utilization of female external urinary collection
devices in 1995, we identified all claims for these devices in excess of one per day in a
1 percent sample of HCFA’S National Claims History file. Again, our 1995 data was
compared with allowances for excess female urinary collection devices in 1994 and
1993.

We arrayed the data by procedure code, carrier, supplier, and quarter billed.
Although the guidelines were implemented after the dates of most of the billings
examined in our study, they provide a useful standard to identify vulnerabilities in the
earlier billings which may still be present.




    1 Allowed payments include both the 80 percent Medicare payment and the 20
percent coinsurance paid by the beneficiary.


                                            3
We projected our estimates to the universe of incontinence claims by multiplying
sample results by 100. Confidence intervals are presented in Appendix A.

This report continues our earlier work concerning Medicare allowances for
incontinence supplies.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           4

                                FINDINGS


ABUSIVE BILLINGS FOR INCONTINENCE                SUPPLIES HAVE ALL BUT
DISAPPEARED.

Total Medicare allowances for incontinence supplies have declined for the first time
since 1991. Allowances decreased by over 40 percent from $260 million in 1994 to
$150 million in 1995. Questionable billing for supplies has declined by over
three quarters since 1994. Medicare allowed nearly $26 million in 1995 for supplies
related to the two types of questionable billing we examined, a drop of 77 percent
from $111 million in 1994. Allowances for supplies billed without prosthetic devices
were $80 million in 1994. In 1995, this type of questionable billing for supplies
dropped to $22 million, a decrease of 73 percent. In 1994, billing for excessive
EUCDS reached a high of $31 million. In 1995 this figure dropped to $3.8 million, a
decrease of 88 percent.

Allowancmfor accessoriesbilledwithoutprostheticdevicesdeclinedsiW#icant~.

In order for Medicare to pay for incontinence accessories, the beneficiary must have a
prosthetic device such as a catheter or a urinary collection device. Allowances for
accessories without prosthetic devices have declined considerably. The $22 million in
questionable billings for supplies represents only 15 percent of the total $150 million
allowed for incontinence supplies in 1995. In 1994, questionable billings made up 43
percent of allowances for incontinence supplies.

Two DMERCS accounted for over two-thirds of the allowances for incontinence
supplies billed without prosthetic devices. This represents over $14 million of the $22
million in questionable billings in all of 1995.

Nearly 70 percent of all allowances for supplies without prosthetic devices were made
to just 10 suppliers. These suppliers represent less than 3 percent of all suppliers with
questionable billings in 1995.

In 1995, nearly 92 percent of the $22 million in allowances ($20 million) were made
prior to the implementation of HCFAS new policy on October 1, 1995. This policy
clearly delineated that Medicare would not reimburse claims for incontinence supplies
billed without prosthetic devices. After the policy was implemented, allowances
dropped from $12 million in the first quarter of 1995 to $1.7 million in the fourth
quarter, a decline of 85 percent. This indicates savings to Medicare of $58 million
from 1994 allowances for supplies without devices.

Two DMERCS accounted for three-quarters of the allowances          for incontinence
supplies billed without prosthetic devices in the fourth quarter   of 1995. This
represents over $1.3 million of the $1.7 million in questionable   billings in the fourth
quarter. More than half of all allowances for supplies without     prosthetic devices in


                                            J
the fourth quarter of 1995 were made to just three suppliers. These suppliers
represent less than 3 percent of all suppliers with questionable billings in the fourth
quarter.

Billingsfor excessiveEUCDS huve been eliminated.

According to DMERC guidelines, female EUCDS may not be billed in excess of one
per day. We identified $3.8 million in 1995 allowances for female EUCDS in excess of
one per day. This represents 78 percent of the total allowed for EUCDS. However,
after HCFA implemented its new policy in the fourth quarter of 1995, there were no
allowances for EUCDS in excess of one per day. This means that the problem has, for
all practical purposes been eliminated, saving Medicare over $27 million from 1994
levels.

One DMERC processed nearly half the claims for EUCDS in excess of one per day in
1995. This DMERC was responsible for $1.6 million of the total $3.8 allowed for
excessive EUCDS.

Fifty-seven percent of all allowances for excessive EUCDS were made to just three
suppliers. All of the allowances for excessive EUCDS made to these suppliers were
made by one DMERC.

APPROXIMATELY  $49 MILLION HAS BEEN RECOVERED THROUGH
SEIZURES AND RESTITUTIONS FROM ABUSIVE INCONTINENCE
SUPPLIERS.

As part of OIG efforts to reduce questionable allowances for incontinence and
prosecute suppliers involved in such billings, the Office of Investigations (01) launched
a national investigation known as Incontinent Care Case Project. Under this initiative,
01, along with other law enforcement agencies, has developed eight cases against
incontinence suppliers. These cases involved approximately $61 million in fraudulent
Medicare claims. The 01 has recovered approximately $49 million through seizures
and restitutions. In most of the cases, suppliers were billing for female external
urinary collection devices but providing beneficiaries with diapers, which are not
covered under Medicare.

Thus far, these 8 cases have resulted in 12 prosecutions. In one case, five fraudulent
suppliers were prosecuted and sentenced for schemes involving submitting claims to
carriers with the highest reimbursement and billing for items not supplied. A second
case resulted in the prosecution of a supplier for the same kind of schemes. In
another case, five people pled guilty to Medicare fraud. In one case, a supplier was
sentenced to 5 years in prison for money laundering, witness tampering, mail fraud,
and interstate transportation of property obtained by fraud. As a result of one case a
supplier has been arrested. Other cases involved searches and seizures of property.




                                             6

                                CONCLUSION

Concerted efforts by HCFA, OIG, and other law enforcement agencies, in the form of
changes in payment and coverage policy, fraud alerts, reports, and prosecutions, have
contributed to the declines in Medicare allowances documented in this report. The
new policy has made billing for questionable supplies more difficult. The fraud alerts
and reports concerning incontinence supplies have made DMERCS and others
concerned with claims processing aware of questionable billing practices. Along with
published documents, prosecutions of and payment of restitutions by incontinence
suppliers has sent a message that fraudulent billing for incontinence supplies will not
be tolerated.

Based on our analysis, we estimate that declines in questionable billings saved the
Medicare program $85 million in 1995. Assuming questionable billing levels will
remain at the 1995 fourth quarter level ($1.7 million), total questionable allowances in
1996 will be approximately $6.8 million, resulting in savings of $104 million over 1994
levels. If this trend continues, we estimate that Medicare-will save $542 million
between 1996 and 2000.

We will refer information on suppliers who continue to submit questionable claims to
the appropriate agencies. Continued vigilance in this area will make questionable
allowances for incontinence supplies even lower in the future.
                    OFFICE      OF INSPECTOR          GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.




                      Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI’S Philadelphia Regional Office prepared this report under the direction of Robert
A. Vito, Regional Inspector General.   Principal OEI staff included:

REGION                                           HEADQUARTERS

Nancy J. Molyneaux, Project Leader	              Lisa A. Foley, Program Specialist
                                                 Brian Ritchie, TSS


To obtain a copy of this report, call the Philadelphia Regional Office at 1-800-531-
9562.
